Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Employment Programs for Persons with
     Developmental Disabilities




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 1999
                      OEI-07-98-00260
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Kansas City regional office prepared this report under the direction of James H. Wolf,
Regional Inspector General. Principal OEI staff included:

REGION                                                   HEADQUARTERS

Dennis Tharp, Project Leader                    Al Levine, Program Specialist

Tricia Fields, Program Analyst

Tim Dold, Program Analyst





          To obtain copies of this report, please call the Kansas City Office at (816) 426-3697.
          Reports are also available on the World Wide Web at our home page address:

                                   http://www.hhs.gov/progorg/oei
                         EXECUTIVE                         SUMMARY

PURPOSE

          To describe promising approaches and barriers to employment programs for persons with
          developmental disabilities.

BACKGROUND

          Developmental disabilities affect a person’s ability to work, live, socialize, and maintain

          self-sufficiency. Nationally, the number of persons with developmental disabilities is

          estimated at approximately three to four million. To enhance the environment in which a

          person with developmental disabilities lives and to lessen the many barriers that they

          encounter, Congress enacted the Developmental Disabilities Assistance and Bill of Rights

          Act (42 USC 6000) to establish Developmental Disabilities Councils in each State.


          The main goals of State Developmental Disabilities Councils include: promoting

          integration into work and community settings so that individuals with developmental

          disabilities are not separated or isolated from others; protecting individual rights; ensuring

          they will have accommodations they need; and ensuring they will have control over their

          own resources. Nationally, funding for State Councils was approximately

          $65 million per year for 1996, 1997, and 1998.


          We conducted this study in response to a request from the Commissioner of the

          Administration on Developmental Disabilities (ADD), Administration for Children and

          Families (ACF). Our purpose was to identify, describe and assess promising approaches

          to promote employment of persons with developmental disabilities. We based our study

          on information gathered from State Developmental Disability Councils, Vocational

          Rehabilitation agencies, Mental Health agencies, Mental Retardation/Developmental

          Disabilities agencies, job service agencies, and employers.


FINDINGS

Promising Employment Programs

          While State Councils do not obtain direct employment for persons with developmental
          disabilities, they are instrumental in facilitating job opportunities for them. State Councils
          initiate demonstration projects by providing seed monies for promising employment
          approaches. These programs include public awareness, supported employment, and high
          school-to-work transition programs. Also, innovative employment approaches which
          Council directors indicate yield successful results are consumer

Employment Programs for Persons w/ Dev. Disabilities   1                                    OEI-07-98-00260
          directed vouchers, entrepreneurial grants, and State hiring programs. In addition, nearly
          all respondents report that these promising and innovative programs could be replicated in
          other States.

Factors and Relationships Important in Obtaining Jobs

          Many factors are important in creating jobs and in ensuring success in employment
          programs, including the involvement of the employer community, collaborative
          arrangements among State entities, and planning for long term support systems.

          State entities also report that basing jobs on the personal interests of persons with
          developmental disabilities, effectively marketing them for appropriate jobs, and a unified
          State disability policy are critical to the success of employment programs.

Less than Effective Approaches to Employment

          Ineffective approaches listed most frequently among respondents are: poor job matching;
          high speed production jobs which are too stressful; traditional sheltered employment
          agencies; mobile work crews and groups; offering too many financial initiatives to
          employers; and outdated pre-vocational training models. In many cases, these approaches
          also entail inherent barriers to employment of persons with developmental disabilities.

Barriers and Ways to Address Them

          State entities report that some of the barriers which impede the development of
          employment programs are: a lack of transportation; fear of losing Medicaid or a monthly
          Supplemental Security Income check; negative perceptions held by employers; and lack of
          flexible financing arrangements among State entities. Respondents cite many methods to
          reduce or eliminate barriers, including individual transportation plans, cooperative
          financing, and business advisory councils.

Limited Employment Outcome Data

          Very little management information exists on performance and outcomes of monitoring
          employed individuals with developmental disabilities. Data we reviewed is limited and
          inconsistent from State to State.

RECOMMENDATIONS

          A number of positive initiatives are being undertaken by State Councils directly or through
          collaborative programs with other State agencies. However, identifying performance data
          is difficult. While it may be challenging for State Councils to capture



Employment Programs for Persons w/ Dev. Disabilities   2                                  OEI-07-98-00260
          and measure extensive information on general effectiveness of employment programs,
          steps need to be taken to report the progress on individuals with developmental disabilities
          in obtaining and keeping jobs. To accomplish this, the ACF should consider the following:

Promising Practices Should be Shared Among States

          State Councils identify a number of promising and innovative practices and generally feel
          these could be replicated in other States. In fact, some State Councils already require
          grantees to develop a replication manual for their demonstration projects. We believe that
          communicating these practices is in the best interest of employment programs and their
          effective operation. Three specific actions that ACF/ADD should consider include:

                    1) working with State Councils to develop an ongoing inventory of
                       successful employment initiatives;

                    2) working toward developing a formal mechanism to allow
                       State Councils to share promising employment approaches on a
                       national level; and

                    3) communicating practices known to enhance the quality and
                        efficiency of data documentation and reporting.

Core Data Requirements Should be Established to Evaluate Job Initiatives

          State entities confirm the benefits of having outcome data to relate performance/
          achievement, and to measure effectiveness. Despite activities underway to develop and
          implement such outcome data, we believe it would be beneficial for ACF to develop
          mandatory performance measures with which all State Councils must comply. We note
          that a beneficial tool in this effort may be the “Core Indicators” being developed by a
          workgroup of State Mental Retardation/Developmental Disabilities directors. While these
          performance measures are largely focused on State mental retardation issues, some of the
          measures may be valuable to apply to all persons with developmental disabilities.

AGENCY COMMENTS

          The ACF concurred with recommendations in this report. We have made changes to the
          final report to reflect agency wording suggestions.




Employment Programs for Persons w/ Dev. Disabilities   3                                 OEI-07-98-00260
                         TABLE                         OF           CONTENTS

                                                                                                                        PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS


          Promising Employment Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Factors and Relationships Important in Obtaining Jobs . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Less than Effective Approaches to Employment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


          Barriers and Ways to Address Them . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          Limited Employment Outcome Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


APPENDICES


          A: Recent Trends As Reported by Respondents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


          B: Ineffective Approaches/Barriers As Specifically Reported By Respondents . . . . . . . 22


          C: Barriers As Reported By State Councils . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


          D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25





Employment Programs for Persons w/ Dev. Disabilities            4                                                OEI-07-98-00260
                                     INTRODUCTION

PURPOSE

          To describe promising approaches and barriers to employment programs for persons with
          developmental disabilities.

BACKGROUND

          Developmental disability is defined in the Developmental Disabilities Assistance and Bill of
          Rights Act, as amended by Public Law 103-230, as a “severe, chronic disability of an
          individual five years of age or older that is: attributable to a mental or physical impairment
          or combination of mental and physical impairments; manifested before the individual
          attains age 22; likely to continue indefinitely; and results in substantial functional
          limitations in three or more areas of major life activity.” Nationally, the number of persons
          with developmental disabilities is estimated at approximately three to four million.

          Major life activities which may be affected by a developmental disability include: self-care;
          receptive and expressive language; learning; mobility; self-direction; capacity for
          independent living; or economic self-sufficiency. Developmental disabilities affect a
          person’s ability to work, live, socialize, and maintain self-sufficiency in a community
          setting. Individuals with developmental disabilities need a combination of special
          interdisciplinary services, supports, or other assistance of lifelong or extended duration.
          Such services or assistance are typically planned and coordinated individually. Without
          appropriate services, people with developmental disabilities are isolated rather than fully
          integrated into mainstream society.

State Developmental Disabilities Councils

          The Developmental Disabilities Assistance and Bill of Rights Act established
          Developmental Disabilities Councils in each State. Their mission is “to assure that
          individuals with developmental disabilities and their families participate in the design of
          and have access to culturally competent services, supports, and other assistance and
          opportunities that promote independence, productivity, employment, integration, and
          inclusion into the community.” The goals of the Developmental Disabilities Assistance
          and Bill of Rights Act include: promoting integration into work and community settings
          so that individuals with developmental disabilities are not separated or isolated from
          others; protecting individual rights; ensuring they will have accommodations they need;
          and ensuring they will have control over their own resources.




Employment Programs for Persons w/ Dev. Disabilities   5                                   OEI-07-98-00260
          Specifically, State Councils are defined in the Statute as organizations designed to
          “promote (through systemic change) capacity building, advocacy activities, the
          development of a consumer and family-centered comprehensive system, and a coordinated
          array of culturally competent services, supports, and other assistance designed to achieve
          independence, productivity, and integration and inclusion into the community for
          individuals with developmental disabilities.”

          State Councils build on community and family resources to infuse new creativity and
          vision into policy and leadership of State, local, and private programs. While there are
          general priority areas for State Councils (i.e., employment, community living, child
          development, system coordination, and community education activities), the only
          Federally mandated area for all Councils is employment activities.

          The Act specifies that State Councils will have administrative and program staff and must
          complete 3-Year State Plans. The State Councils must submit annual reports of
          performance to the Administration on Developmental Disabilities (ADD) within the
          Administration for Children and Families (ACF) covering goals as identified in State Plans
          and the select areas of emphasis in which their States will specialize. As of 1997, State
          Councils are required to select performance measures related to outcomes in the annual
          program performance reports to the ADD. The Councils submit outcome information on
          at least one measure out of a group of 22 employment-related performance measures.
          Each year, State Councils must demonstrate that they have assisted persons with
          developmental disabilities in their State in obtaining and keeping employment consistent
          with their interests, abilities, and needs.

          State Council members are appointed by State Governors. One-half of the membership
          must include a combination of (a) persons with developmental disabilities;
          (b) parents/guardians of such persons; and (c) immediate relatives of individuals with
          developmental disabilities who are not employees of State agencies which receive funds or
          provide services.

          State Councils are funded by Federal and State matching funds based upon a formula that
          involves the number of individuals in the States who are developmentally disabled.
          Nationally, funding for State Councils was approximately $65 million per year for
          1996, 1997, and 1998.

Administration on Developmental Disabilities

          The Federal agency responsible for oversight of the State Councils is the Administration
          on Developmental Disabilities within ACF. It provides guidance to State Councils,
          sponsors and funds training sessions, and conducts monitoring functions for oversight and
          compliance with program guidelines. The ADD, along with ACF regional offices,
          provides technical assistance on policy and other issues to numerous Councils each year.


Employment Programs for Persons w/ Dev. Disabilities   6                                 OEI-07-98-00260
          In addition, its staff conducts random, programmatic reviews of a small number of State
          Councils on management and technical issues. State Councils submit annual program
          performance reports to ADD covering program goals and accomplishments, and priorities
          and functions related to the various State initiatives and activities.

National Disability Associations

          There are two national associations which provide support and advocate programs for
          persons with developmental disabilities -- the National Association of Developmental
          Disabilities Councils and the Consortium of Developmental Disabilities Councils. They
          encourage and promote activities of State Councils, and are active in legislative matters
          concerning developmental disability issues. The National Association of Developmental
          Disabilities Councils recently was awarded a contract by ACF to provide technical
          assistance to State Councils. This assistance is expected to strengthen State Councils’
          capabilities to construct an effective data management system and also assist the States to
          meet the data requirements mandated by the Government Performance and Results Act of
          1994.

Vocational Rehabilitation and Mental Health Agencies

          The Rehabilitation Act of 1973, as amended, authorizes the Department of Education’s
          Vocational Rehabilitation program to provide comprehensive vocational rehabilitation
          services designed to help those with the most severe physical and mental disabilities return
          to the work force. This is primarily done through Federal funding to State Vocational
          Rehabilitation Agencies that directly provide services. These services include counseling,
          work evaluation, work adjustment training, job skills training, job-seeking skills training,
          and medical rehabilitation management.

          The Federal/State vocational rehabilitation program is operated and administered through
          a combination of State general and blind-only vocational rehabilitation agencies and
          various other State and private facilities. These agencies provide individualized vocational
          rehabilitation services to accepted individuals according to a written rehabilitation plan
          that is jointly developed by a counselor and the individual. Counselors evaluate whether
          there is a reasonable expectation that the individual will benefit from vocational
          rehabilitation services in terms of their employability. This judgment is based on the
          individual’s impairment and the availability of services and resources.

          State Mental Health agencies are advocates for individuals who have a mental illness,
          which may or may not include persons with developmental disabilities. Their personnel
          interact with various institutions and organizations to assist individuals in their
          socialization and adaptive skills. State Mental Health agencies assess appropriate job
          opportunities for individuals with developmental disabilities and are influential in setting



Employment Programs for Persons w/ Dev. Disabilities   7                                    OEI-07-98-00260
          Statewide goals and policies for persons with mental illness and developmental disabilities.

          The Health Care Financing Administration (HCFA) has Home and Community Based
          Services (HCBS) programs available to assist persons with developmental disabilities in
          their jobs. These serve as waivers to the basic requirements that States have in operating
          their medical programs. The HCBS waivers approved by HCFA allow for limited
          reimbursement of prevocational services and supported employment services.
          Prevocational services are aimed at preparing an individual for paid or unpaid
          employment, but are not job-task oriented. Supported employment services are conducted
          in a variety of settings, particularly in work sites where persons without disabilities are
          employed. Supported employment services consist of paid employment for which
          competitive employment at or above the minimum wage is unlikely. In this manner,
          supported employment helps persons with developmental disabilities who, because of their
          disabilities, need intensive ongoing support to perform in a work setting.

SCOPE AND METHODOLOGY

          The Commissioner of the Administration on Developmental Disabilities requested the
          Office of Inspector General to conduct this study.

          Our purpose was to identify, describe and assess promising approaches to promote
          employment of persons with developmental disabilities. We based our study on
          information gathered from State Developmental Disability Councils, Vocational
          Rehabilitation agencies, Mental Health agencies, Mental Retardation/Developmental
          Disabilities agencies, job service agencies, and employers. We asked our respondents
          what approaches they believed were effective and what barriers they were confronting.
          We compared answers from different respondent groups to identify commonalities. We
          analyzed program performance reports and outcome data where available.

          Our method does not yield proof of program effectiveness, but it does provide the best
          assessment of promising approaches based on the insights and experience of responsible
          professionals and evidence available in administrative records and allied documents. It
          provides leads and suggestions for approaches that appear worthwhile for further
          experimentation and development, and identifies some approaches which, based on
          experience to date, should probably be avoided.

          We selected a judgmental sample of nine State Developmental Disabilities Councils. Six
          of the Councils are affiliated with the National Association of Developmental Disabilities
          Councils, while the remaining three Councils are affiliated with the Consortium of
          Developmental Disabilities Councils. In addition, seven of the nine sampled States have
          numerical employment goals outlined in their three-year State plans. We obtained a
          mixture of States with large populations and small populations. We also conferred with



Employment Programs for Persons w/ Dev. Disabilities   8                                 OEI-07-98-00260
          ADD on State Council selection as to States which appear to have some promising

          employment approaches. The nine States are Florida, Massachusetts, Michigan,

          Nebraska, New Mexico, Ohio, Oregon, South Dakota, and West Virginia.


          In addition to the 9 State Councils, we also obtained information from 9 Vocational

          Rehabilitation agencies, 8 Mental Retardation/Developmental Disabilities agencies,

          4 Mental Health agencies, 10 employers, and 13 job agencies. We conducted telephone

          surveys of Executive Directors for the nine Councils to determine specific employment

          activities supported by those Councils during 1996, 1997, and 1998. We obtained and

          examined performance information submitted to ACF on program performance reports,

          reviewing the types, extent, and outcomes of employment programs supported by the

          State Councils which specifically assist individuals with developmental disabilities. 


          We conducted on-site visits at four of the nine sampled States. On-site visits were

          selected in part based on promising approaches identified in the telephone surveys. During

          these visits, we interviewed the Executive Director of the State Council and Council staff,

          the State Vocational Rehabilitation Director, the State Mental Health Director, the State

          Mental Retardation/Developmental Disabilities Director, a job agency, and at least one

          employer that participates in programs to hire persons with developmental disabilities. We

          gathered additional insights and perceptions on promising employment programs which

          expanded upon and substantiated our prior telephone discussions.


          For the remaining five States, we gathered information from directors of Mental Health,

          Vocational Rehabilitation, and Mental Retardation/Developmental Disabilities agencies, as

          well as job agency directors and employers. In all, we gathered information from

          53 State entities, employers, and job agencies. We gathered information on systematic

          processes, roles of various State entities, key factors and relationships among State

          entities, documentation of employment activities, and barriers and how to minimize them. 


          We conducted our review in accordance with the Quality Standards for Inspections issued

          by the President’s Council on Integrity and Efficiency.





Employment Programs for Persons w/ Dev. Disabilities   9                                OEI-07-98-00260
                                                FINDINGS


Promising Employment Programs
          While State Councils in most cases do not obtain direct employment for persons with
          developmental disabilities, they are instrumental in facilitating job opportunities for
          persons with developmental disabilities. The Councils initiate demonstration projects by
          providing seed monies for promising employment approaches. These demonstration
          projects are often in conjunction with State Vocational Rehabilitation, State Mental
          Retardation/Developmental Disabilities agencies, and local community providers and job
          agencies.

          We found a number of promising program strategies to assist individuals with
          developmental disabilities to obtain jobs. Some employment programs have wide
          application, and are generally considered quite successful by all State Councils. These
          employment activities which are actively endorsed by all nine State Councils are public
          awareness initiatives, supported employment programs, and high school-to-work
          transition programs. A second category comprising innovative employment programs are
          consumer directed vouchers, entrepreneurial grants, and State hiring programs which
          Council directors indicate yield successful results. In addition, nearly all respondents
          report that these promising programs could be replicated in other States.

Public Awareness

          All nine State Councils work to increase public awareness of the employability of persons
          with developmental disabilities through poster campaigns, periodic newsletters, legislative
          proposals, resource guides, videos, and conferences. They are also heavily involved in
          advocacy efforts to change perceptions and attitudes about persons with developmental
          disabilities. They work to place them in visible settings, thus raising the level of awareness
          of the competencies and abilities of persons with developmental disabilities. Some State
          Councils reduce and remove attitudinal barriers by highlighting current employment
          programs on an Internet website and by providing public recognition of exemplary
          employers.

Supported Employment

          Supported employment includes paid work in a variety of integrated settings. It is
          directed to individuals for whom competitive employment at or above minimum wage has
          not traditionally occurred, and who, because of their disability, may need intensive
          ongoing support to perform in a work setting. Supported employment work sites range

Employment Programs for Persons w/ Dev. Disabilities   10                                  OEI-07-98-00260
          from regular work sites without any physical accommodations to work sites especially
          designed for severely physically or cognitively challenged individuals. Examples of work
          sites we visited include a woodworking facility, a graphics arts company, and a factory
          with light assembly work. Supported employment programs traditionally have job coaches
          who provide initial training and adaptation to the job setting for a period of a few weeks
          to several months, usually until the person with a developmental disability can function
          virtually independently. As an example, the Developmental Disabilities Services agency in
          Florida reported that the number of individuals with developmental disabilities in
          supported employment programs in that State has increased approximately 38 percent
          from 1996 (2,840 persons) to 1998 (3,931 persons).

High School-to-Work Transition

          High school-to-work transition programs create career opportunities for persons with
          developmental disabilities. These transition programs were developed because
          traditionally many persons with developmental disabilities had limited career options upon
          high school graduation. Transition programs promote the concept that if individuals with
          developmental disabilities acquire jobs right before or immediately after high school
          graduation, they are more likely to work and are prone to continue working during their
          adult years. The programs we examined appear to be very promising because students are
          allowed input in the decision-making processes of their individualized career plans.
          Michigan reports that transition programs for youth with developmental disabilities served
          in special education settings up to age 26 increased approximately 31 percent from
          1996 (7,169 persons) to 1998 (9,398 persons).

Consumer Directed Vouchers

          In five of nine States, we found examples of successful consumer directed voucher
          programs. Following the concept of person-centered planning found in transition
          programs, consumer directed voucher programs allow families and individuals with
          developmental disabilities to control a selection process of purchasing services and
          supports which will result in employment. Through the consumer directed vouchers,
          persons with developmental disabilities design individual employment plans to facilitate
          their goals. Families, friends, and the person with developmental disabilities work
          together to choose their own employment advisors, community-based providers of
          services, job coaches, and job agencies. Through this activity the Oregon family grants
          voucher program serves 25 families per year. In 1997-1998, the voucher program in
          Oregon helped to place 50 persons with developmental disabilities in employment.

Entrepreneurial Grants

          Entrepreneurial grants provide financing for creative, individual business plans submitted
          by persons with developmental disabilities. Entrepreneurial grants support specifically
          tailored business plans which are often nontraditional ideas launched by forward-thinking
          persons with developmental disabilities wishing to pursue a unique job opportunity on

Employment Programs for Persons w/ Dev. Disabilities   11                                OEI-07-98-00260
          their own. We note that three of the nine States sampled (Massachusetts, South Dakota,
          and West Virginia) are actively seeking requests for entrepreneurial grant proposals.
          Entrepreneurial grants provided the start-up costs for a lawn care service, an antique
          business, a typing service, and a shredding service for developmentally disabled individuals
          in West Virginia.

State Hiring Initiatives

          We found State government hiring programs in Florida and Massachusetts, in which State

          government vacancies are specifically marketed for individuals with developmental

          disabilities. In Massachusetts, vacancy announcements are amended to emphasize the

          search for applicants with developmental disabilities across all levels of State government. 

          In Florida, a program coordinator with developmental disabilities was hired through a

          grant from Vocational Rehabilitation. Through this program, over

          20 individuals with developmental disabilities obtained (and many retained) their positions

          through this government hiring initiative from fiscal year 1996 - 1998. 


          Related to employment programs and their potential for promising outcomes, respondents

          identify a number of trends which have influenced employment programs over the past

          three years. Some of these trends are: a prevalence toward service industry jobs;

          increased public and employer awareness of hiring persons with developmental disabilities;

          and more focus on hiring persons with severe disabilities. Also, while a growing economy

          increases the availability of jobs for individuals with developmental disabilities, modern

          jobs requiring the ability to perform multiple tasks simultaneously render some persons

          with developmental disabilities incapable of conducting certain work. See Appendix A for

          a listing of trends reported by respondents. 




Factors and Relationships Important in Obtaining Jobs
          We identified a number of activities that are important in creating jobs and obtaining
          success in employment programs. These activities are based on comments from State
          Councils, State Mental Health agencies, State Vocational Rehabilitation divisions, State
          Mental Retardation/Developmental Disabilities agencies, employers, and job agencies.

          Out of a total of 53 respondents, numerous factors are identified as important in creating
          jobs, including involvement of the employer community, building long term support
          systems for persons with developmental disabilities, and effectively marketing the skills of
          persons with developmental disabilities to businesses. Table 1 on the next page lists the
          major factors respondents believe are important to create jobs.




Employment Programs for Persons w/ Dev. Disabilities   12                                 OEI-07-98-00260
                                                       Table 1
             Factors in Creating Jobs for Persons w/ Dev. Disabilities1
 Involvement of employer community                                              23 respondents
 Planning for long term support; building “natural supports”2                   19 respondents
 Effective marketing (filling an employer’s human resource need)                10 respondents
 Basing job choices on personal interest                                         9 respondents
 Including family members and agencies in the job search effort                  5 respondents
 Changing public and employer perceptions of abilities                           4 respondents
 Opportunities for job try-outs                                                  3 respondents
 A positive attitude towards persons with developmental disabilities             2 respondents
 1
  Study participants may have indicated more than one response.
 2
  “Natural supports” are coworkers, friends, neighbors, and family upon which the person with
 developmental disabilities relies.
 Source: Office of Evaluation and Inspections (OEI) Survey, 1999

          State entities, employers, and job agencies also indicate that there are many methods to
          foster and enhance important relationships. Out of 53 total respondents, the following
          relationships are cited in Table 2 as critical to the success of employment programs for
          persons with developmental disabilities.

                                                       Table 2
       Relationships Important for Success in Employment Programs1
 Collaborating with other State agencies and entities to establish
 effective approaches                                                        23 respondents
 Educating employers on hiring persons w/developmental disabilities           9 respondents
 Developing a unified State disability policy across agencies                 6 respondents
 Working with agencies to implement coordinated, flexible funding             4 respondents
 Creating public awareness for supported employment                           3 respondents
 1
  Study participants may have indicated more than one response.
 Source: OEI Survey, 1999



Employment Programs for Persons w/ Dev. Disabilities     13                              OEI-07-98-00260
          When asked how employment programs can be enhanced, a job agency director said that
          common definitions and terms could be an asset to implementing better employment
          programs, and a State Vocational Rehabilitation director noted that a common database
          could enhance relationships in the employment programs. Also, a director of a State
          Mental Retardation/Developmental Disability agency said, “No one’s work is ever
          finished,” that after placement of a person with a developmental disability into a job, many
          entities, including job coaches, the State Council, Vocational Rehabilitation, and
          community providers must remain integrally involved in the continued oversight of
          achievements and problems of the newly hired employee.



Less than Effective Approaches to Employment
          State Councils and entities that work with persons with developmental disabilities indicate
          there are a number of approaches which are less than effective in obtaining employment.
          Ineffective approaches listed most frequently among respondents were:

          <	        Poor job matching
                    Merely filling “slots,” as opposed to assessing the vocational interests of the
                    person with developmental disabilities. Respondents say the more individualized
                    the “match,” especially if a job has been specifically carved out, the more likely the
                    job will last;

          <	        Jobs demanding high production
                    These types of jobs are often very stressful, placing the person with developmental
                    disabilities in an uncomfortable, high-speed, high pressure situation;

          <	        Sheltered agencies/segregated work sites
                    Employees in these settings generally earn less than minimum wage with no
                    benefits, and do not have opportunities for promotion. We were also told that
                    some supervisors at sheltered agencies may retain their best workers to keep up
                    with production demands, rather than allowing persons with developmental
                    disabilities to compete in the private sector or move into a supported employment
                    setting;

          <	        Mobile work crews/enclaves
                    We were told that placing individuals in roving work crews which perform
                    cleaning and other custodial tasks in office buildings (perhaps spending
                    10 minutes in 20-25 different offices) does not allow for full integration of persons
                    with developmental disabilities;




Employment Programs for Persons w/ Dev. Disabilities   14                                    OEI-07-98-00260
          <	        Offering too many financial incentives to employers
                    It is important not to overemphasize tax incentives or “oversell” potential
                    employees with developmental disabilities. Rather, job agencies and placement
                    specialists should work to fill actual human resource needs which companies have.
                    We were cautioned by one State that businesses might terminate an employee
                    should financial incentives expire; and

          <	        Prescribing outdated pre-vocational training models
                    We were told that too much emphasis on skills building and job preparedness is a
                    less than effective approach. While training of the employee with developmental
                    disabilities is important, many employers are now conducting training themselves,
                    reducing the need for extensive, pre-placement training.

          Highlights of comments regarding ineffective approaches to employment are contained in
          Appendix B, which includes various responses from State Councils, State agencies, job
          agencies, and employers.



Barriers and Ways to Address Them
          State entities informed us of many barriers which impede the development and
          administration of employment programs, with the greatest barrier that persons with
          developmental disabilities encounter being a lack of transportation. All State Council
          directors list transportation as one of the top five barriers to employment for persons with
          developmental disabilities. (Appendix C reflects the barriers rated by State Council
          directors).

          The general consensus of Councils to remedy transportation problems is to assemble a
          task force of the friends, parents, siblings, relatives, neighbors, job coaches, and
          prospective coworkers of the person with developmental disabilities to devise an
          individualized transportation plan so that he/she has the ability to go to work on a
          dependable basis with a reliable mode of transportation.

          Respondents also said that fear of losing a monthly Supplemental Security Income (SSI)
          check is a disincentive to work. People with developmental disabilities may also have
          chronic medical conditions, yet may not have health insurance to pay for the care. These
          two barriers may be addressed by the proposed Work Incentives Improvement Act of
          1999, which will expand Medicaid options for States and encourage SSI beneficiaries to
          return to work by providing an assurance that cash benefits will remain available if
          employment proves unsuccessful.




Employment Programs for Persons w/ Dev. Disabilities   15                                 OEI-07-98-00260
          Negative perceptions held by employers about the employability of a person with
          developmental disabilities are a common obstacle. Raising public awareness and support
          for obtaining jobs for persons with developmental disabilities can be accomplished through
          presentations to civic groups such as Chambers of Commerce, Lions and Rotary clubs,
          and employer groups, and by developing business advisory councils. Such advisory
          councils are groups of employers which periodically assemble to discuss employment
          needs in the community and how to effectively hire individuals with developmental
          disabilities. They can assist employers in understanding their responsibilities in regards to
          the Americans with Disabilities Act, specifically any physical accommodations which must
          be made to adapt their workplace for a prospective employee with developmental
          disabilities. Also, of the employers surveyed, 7 of 10 indicate that assistive technology is
          not needed for their newly hired individuals with developmental disabilities.

          Communicative skills in a professional business setting are traditionally a weakness of
          persons with developmental disabilities. Work and social skills may be enhanced on the
          job with the assistance of a job coach and a supervisor. Also, a practical way to address
          concerns of employers is to demonstrate the various skills and abilities that the person
          with developmental disabilities can contribute to the job. Job agencies can work
          specifically with individual employers to make successful one-on-one matches.

          Lack of flexible financing arrangements among State entities is a commonly expressed
          barrier by State Councils, Vocational Rehabilitation, State Mental Health, and State
          Mental Retardation/Developmental Disabilities agencies. Several State entities in
          Massachusetts recently developed a mixed funding stream through years of collaborative
          meetings where the various agencies used creativity to devise a manageable, cooperative
          arrangement of financing where community based providers charge the same amount for
          certain pre-approved services. This mixed funding stream is an outcome based payment
          system which allows funding to be assigned to developmentally disabled individuals who
          can choose their service components as well as providers of service.



Limited Employment Outcome Data
          We talked to 53 respondents and reviewed 1998 program performance reports from the
          nine State Councils. We found data is limited and inconsistent from State to State. We
          could not find where outcome data is generally available for use in determining success,
          effectiveness, and performance aspects of employment programs. Respondents indicated
          in many cases that such data is not available or is questionable in terms of its usefulness
          and reliability. They believe that greater detail and more extensive data would be
          beneficial in their evaluation of employment programs and their effectiveness.




Employment Programs for Persons w/ Dev. Disabilities   16                                 OEI-07-98-00260
          We found that very little management information exists on performance and outcomes of
          monitoring employed individuals with developmental disabilities. While State Councils
          obtain some data on a grant-by-grant basis, few State entities perform extended follow-up.
          Therefore, information on the length or range of time persons with developmental
          disabilities and employers participate in employment programs is generally not available.
          Also, in 34 CFR §361.56(d), Vocational Rehabilitation is permitted to “close out”
          successful job placements after 90 days. This makes it difficult to perform extended
          evaluations or comprehensive, longitudinal studies of the successes of employment for
          persons with developmental disabilities.

          While State Vocational Rehabilitation agencies keep demographic information by certain
          disability categories, their data does not specifically discern which individuals served have
          developmental disabilities. Also, State Mental Health and State Mental
          Retardation/Developmental Disabilities agencies may follow different definitions for
          developmental disabilities.

          The Nebraska and Oregon State Mental Retardation/Developmental Disabilities agencies
          advise us that two promising performance management initiatives are being conducted
          which assess the need for baseline performance information. A partnership between the
          National Association of State Directors of Developmental Disabilities Services and the
          Human Services Research Institute was formed in January 1997 to conduct the “Core
          Indicators Project.” The purpose of this project is to develop nationally-recognized
          performance and outcome indicators that will enable individual State Developmental
          Disabilities Services agencies to benchmark performance in comparison with other
          agencies, as well as to provide longitudinal data to determine performance level from one
          period to the next. Employment data such as average hourly wages, number of hours
          worked, and length of time on the job is being considered for the indicator set.

          The Oregon Office of Developmental Disabilities Services has a contract with the
          University of Oregon to collect employment data from local job agencies on a
          semi-annual basis. Information is monitored for all employment consumers. Performance
          measures include type of work, duration of employment, hours worked, and hourly
          earnings for each recipient.

          In response to employment performance measures established by ACF in 1997, seven of
          the nine State Councils have established one or more numerical employment goals.
          Because employment performance measures are included in the current State Council
          Three-Year Plans (1998-2000), we asked each of the nine State Councils whether
          numerical employment goals influence the implementation and success of employment
          programs. Four of seven States with numerical employment goals respond affirmatively,
          noting the need to be outcome oriented for success. State Council directors’ perspectives
          are shown in Table 3 on the next page.



Employment Programs for Persons w/ Dev. Disabilities   17                                  OEI-07-98-00260
                                                         Table 3
             Importance and Impact of Numerical Employment Goals
 “Do numerical goals have a
 positive effect on the
 outcome of employment
 programs”?                                 Comments

 Yes.                                       We look at outcomes, not just the process.

 Yes.                                       We have become more outcome oriented.

 No.                                        Didn't change our strategy/methodology; it forced us to look at
                                            outcomes and ask, "So what?"

 Don’t Know.                                Puts pressure on a job agency/employment service provider to put
                                            a person in a job.

 Not applicable.                            This State chose not to have numerical employment goals.

 Not applicable.                            This State chose not to have numerical employment goals.

 No.                                        Not enough experience with goals yet to tell.

 Yes.                                       We are trying to be more in compliance with the Govt. Performance
                                            and Results Act. We look at end result, not just the process.

 Yes.                                       We don't have a lot of experience with goals; accountability is a
                                            good factor.

 Source: OEI Survey, 1999




Employment Programs for Persons w/ Dev. Disabilities       18                                        OEI-07-98-00260
                             RECOMMENDATIONS

A number of positive initiatives are being undertaken by State Councils directly or through
collaborative programs with other State agencies. However, identifying Statewide performance
data is difficult. While it may be challenging for State Councils to capture and measure extensive
information on general effectiveness of employment programs, steps need to be taken to report
the progress of persons with developmental disabilities in obtaining and keeping jobs. To
accomplish this, ACF should consider the following:

Promising Practices Should be Shared Among States
          State Councils identify a number of promising and innovative practices and generally feel
          these could be replicated in other States. In fact, some State Councils already require
          grantees to develop a replication manual for their demonstration projects. We believe that
          communicating these practices is in the best interest of employment programs and their
          effective operation. Three specific actions that ACF/ADD should consider include:

                    1) working with State Councils to develop an ongoing inventory of
                       successful employment initiatives;

                    2) working toward developing a formal mechanism to allow
                       State Councils to share promising employment approaches on a
                       national level. One method for accomplishing this is by ACF
                       publishing and updating reports of State Council innovative practices
                       on the ACF/ADD website at http://www.acf.dhhs.gov/programs/add, and
                       by disseminating materials through mailings and conferences; and

                    3) communicating practices known to enhance the quality and
                        efficiency of data documentation and reporting.



Core Data Requirements Should be Established to Evaluate
Job Initiatives
          State entities confirm the benefits of having outcome data to relate performance/
          achievement, and to measure effectiveness. Despite activities underway to develop and
          implement such outcome data, we believe it would be beneficial for ACF to develop
          mandatory performance measures with which all State Councils must comply.




Employment Programs for Persons w/ Dev. Disabilities   19                               OEI-07-98-00260
          The current system of selectively choosing a small portion of the overall set of
          performance measures severely limits the ability of ACF to adequately assess operational
          effectiveness and outcomes of Council-sponsored employment initiatives. The ACF/ADD
          should consider working with State Councils to identify those specific mission-critical
          performance measures which must be addressed annually by each Council.

          We note that a beneficial tool in this effort may be the “Core Indicators” being developed
          by a workgroup of State Mental Retardation/Developmental Disabilities directors. While
          these performance measures are largely focused on State mental retardation issues, some
          of the measures may be valuable to apply to all persons with developmental disabilities.


AGENCY COMMENTS

          The ACF concurred with recommendations in this report. We have made changes to the
          final report to reflect agency wording suggestions. The full text of ACF’s comments are
          included in Appendix D.




Employment Programs for Persons w/ Dev. Disabilities   20                               OEI-07-98-00260
                                                                      APPENDIX A

                 Recent Trends As Reported By Respondents1


 Low unemployment rates in the general population                 19 respondents
 Substantial increase in service industry employment for the
 general population                                               13 respondents
 Increase in employer/public awareness                             7 respondents
 Low wages and benefits; part-time work                            7 respondents
 Increase in supported employment activities                       6 respondents
 More opportunities for persons w/ severe disabilities             5 respondents
 Multi-tasking required of modern jobs                             4 respondents
 Increasing number of home-based, self employed and
 entrepreneurial businesses                                        4 respondents
 Emphasis/move to “natural supports”2                              3 respondents
 Increased use of temporary job agencies which do not accept
 or employ persons w/ developmental disabilities                   3 respondents
 Difficulty of finding jobs in rural areas                         3 respondents
 Decrease in sheltered agencies/workshops                          3 respondents
 Welfare-to-work population competing with persons with
 developmental disabilities for jobs                               2 respondents
 1
  Study participants may have indicated more than one response.
 2
  "Natural supports” are coworkers, friends, neighbors, and family upon which the
 person with developmental disabilities relies.
 Source: OEI Survey, 1999




Employment Programs for Persons w/ Dev. Disabilities   21                           OEI-07-98-00260
                                                                                            APPENDIX B

                                Ineffective Approaches,

                        As Specifically Reported By Respondents



                                                  Mental Health;
    State                Vocational               MR/DD1
    Councils             Rehabilitation           agencies                Employers          Job Agencies
    Sheltered            Grants: when             Program-based           Too much           Unwillingness of the
    workshops.           payments are made        approach, rather        paperwork;         employer to “carve out”
                         before services are      than person             bureaucracy got    an appropriate job for the
    Large                rendered.                centered planning       in the way.        person with a
    conferences.                                  concept.                                   developmental disability.

    Local coalitions     Work crews (these        Offering too many       Tax credit         High pressure jobs with
    cease when           should only be used      financial incentives.   paperwork is       stress and heavy
    funding stops.       as a last resort).                               difficult.         production schedules.

    Treat the person     Persons with severe      Lack of transition      Overanxious        Inadequate screening.
    as “charity.”        disabilities require     services.               expectations.      Poor fit between person
                         more than “natural                                                  and job.
                         supports.”

    Don’t oversolicit    Training without         Use of vocational       Employer not       Poorly organized small
    businesses.          job development.         assessment tools        taking the time    businesses with unsafe
                                                  and tests.              to train.          working conditions.

    Meaningless          Begging for jobs.        Non-supportive          Poor job           Placing a person before
    jobs.                                         parents.                matching.          they are ready.

    Segregated           Granting money to        Pre-vocational          Harsh              Lack of individual
    worksites.           groups.                  training models.        treatment,         attention. “One size fits
                                                                          reprimands.        all” thinking.

    Persons with                                  Local advisory          Inventing/         Jobs which involve a lot
    severe                                        groups tend to fall     making up          of change or which
    disabilities need                             apart.                  work to keep       demand mastery of many
    more than just                                                        the person         tasks.
    “natural                                      Slotting.               busy.
    supports.”                                                                               Jobs at less than
                                                                                             minimum wage.

1
Mental Retardation/Developmental Disabilities agencies
Source: OEI Survey, 1999


Employment Programs for Persons w/ Dev. Disabilities          22                                           OEI-07-98-00260
                                                                                    APPENDIX C

                       Barriers As Reported By State Councils1


    Florida                          1.   Transportation
                                     2.   People who need job coaches
                                     3.   Loss of SSI/Medicaid
                                     4.   Limited support of school systems/curriculums
                                     5.   Performance-based funding leading to “creaming”
    Massachusetts                    1.   Attitudinal and systemic hiring barriers
                                     2.   Transportation
                                     3.   Cost-sharing agreements between service delivery systems
                                     4.   Maintaining competent and qualified staff
    West Virginia                    1.   Transportation
                                     2.   Loss of SSI/Medicaid
                                     3.   Loss of health insurance
                                     4.   Availability of employers
                                     5.   Attitude
    Michigan                         1.   Transportation
                                     2.   Job readiness skills of persons with developmental disabilities
                                     3.   Loss of SSI/Medicaid
                                     4.   People who need attendant care at work
                                     5.   People with little or no communication skills
    Ohio                             1.   Loss of health insurance
                                     2.   Transportation
                                     3.   Loss of SSI/Medicaid
                                     4.   People who need attendant care at work
                                     5.   Employer ignorance, perceptions, and fears
    Oregon                           1. Use of “alternatives to employment” for persons with
                                        severe disabilities
                                     2. State offset of disposable income for residential services
                                     3. Transportation
                                     4. Federal work disincentives (SSI/Medicaid)
                                     5. Minimum wage increase to $6.50 in Oregon

1
    Barriers are listed in descending order of importance.



Employment Programs for Persons w/ Dev. Disabilities       23                                     OEI-07-98-00260
 Nebraska                             1.   Attitudes of employers
                                      2.   Loss of health insurance
                                      3.   Transportation
                                      4.   Lack of social skills of employees
                                      5.   Availability of employers
 New Mexico                           1.   People believe persons w/developmental disabilities cannot work
                                      2.   Limited support of residential service providers
                                      3.   Limited support of school systems/curriculums
                                      4.   Loss of SSI/Medicaid
                                      5.   Transportation
 South Dakota                         1.   Transportation
                                      2.   Availability of employers
                                      3.   People who need job coaches
                                      4.   Limited mentoring/training opportunities
                                      5.   Loss of SSI/Medicaid
 Source: OEI Survey, 1999




Employment Programs for Persons w/ Dev. Disabilities       24                                  OEI-07-98-00260
                                                                   APPENDIX D

                                                Agency Comments





Employment Programs for Persons w/ Dev. Disabilities   25               OEI-07-98-00260
Employment Programs for Persons w/ Dev. Disabilities   26   OEI-07-98-00260
Employment Programs for Persons w/ Dev. Disabilities   27   OEI-07-98-00260
Employment Programs for Persons w/ Dev. Disabilities   28   OEI-07-98-00260
Employment Programs for Persons w/ Dev. Disabilities   29   OEI-07-98-00260
Employment Programs for Persons w/ Dev. Disabilities   30   OEI-07-98-00260
